              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




  Audit Report

The Department of Energy's
Management of Contractor
Intergovernmental Personnel and
Change of Station Assignments




DOE/IG-0761                                 March 2007
                            Departmee~tof Energy
                               \i\iashingron, GC 26555
                               Pbrch 26, 2007




MEMORANDUM FOR

FROM:
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on "The Department of
                         Energy's Management of Contractor Intergovernmental
                         Personnel and Change of Station Assignments"

BACKGROUND

The Department of Energy's contractor-operated facilities use Intergovernn~ental
Personnel Act ( P A ) and Change of Station (COS) assignments to permit contractor
employees to work at other organizations. P A assignments are temporary transfers of
personnel between the contractor and a Federal agency. Under COS assignments,
personnel are temporarily transferred to a non-Federal organization (i.e., personnel loan
agreements between contractors, non-profit organizations, or private sector entities). The
Department's national laboratories frequently use P A and COS assiyments.

Under the IPA Act, the Office of Personnel Management, as part of its Mobility Program,
issued urovisions re~ardingthe cost and duration of P A assignments. Specifically: (i)
IPA costs should be allocated among participating entities to reflect the mutual benefits
of the program; (ii) employee expenses should be limited to either per dieill or relocation
costs; and, (iii) P A assignments should be relatively short term in nature - no more than
two years (with an allowance for an additional two years, if justified). P A provisions do
not apply directly to contractor COS assignments. However, absent more definitive
criteria, they provided an effective benchmark for evaluating the reasonableness of
Departmental COS assignments.

The objective of this audit was to determine whether the Department was effectively
managing the contractor use of IPA and COS assignments. Our review focused on six of
the Department's national laboratories-Argonne; Lawrence Berkeley; Lawrence
Livermore; Los Alamos; Sandia; and, Pacific Northwest.

RESULTS OF AUDIT

The Department did not have a system to determine the number and propriety of P A and
COS assignments. Relying purely on data provided by contractors managing the six
laboratories, we identified 250 active IPA/COS assignments. We performed a detailed
review of 77 such assignments and found that the Department was not actively ensuring
that the P A and COS assignments were cost effective; operated in accordance with
existing procedures or good business practice; or, that taxpayer-provided funds
supporting IPA/COS assignments were put to the best possible use. We found that 3 1 of


                               a9   Prinled with soy ink on recycled paper
the 77 P N C O S assignments had questionable components. Under these assi,ments,
which were sponsored by Los Alamos, Lawrence Livermore, and Sandia, the
Department's contractors:

       Paid all the costs associated with 16 assignments even though the participating
       entities benefited from the assignments and should have shared the costs;
       Paid excessive allowances for 12 assigned employees, including the payment of
       both relocation and travel per diem costs; and,
       Assigned 10 employees to other organizations for extended periods of time, in
       one case up to 15 years, without ensuring that their assignments were the most
       cost-effective approach to meeting the purported requirements.

We found, as well, that the Los Alamos National Laboratory had not collected funds due
to the Department under cost-shared agreements for IPA assi,vnments. As of
September 27, 2006, we identified $891,000 that had not been collected.

We did not find similar problems at Argonne, Lawrence Berkeley and Pacific Northwest
Laboratories, which accounted for less than twenty percent of the IPNCOS assignments
included in our review.

Some of the problems noted during our review were especially troubling. For example,
Lawrence Livennore National Laboratory paid 100 percent of the costs for four
assignments (approximately $3.7 million) even though it recognized that the participating
entities benefited from the assignments. In another case, Los Alamos National
1 9horatn1-y ageed to pay 100 percent ~f the estimated '$289 000 in cnsts for an TPA
assignment that appeared designed to simply resolve a challenging personnel decision.
This was done with knowledge of Department representatives but was contrary to the
intent of the P A Mobility Program. In addition, Sandia National Laboratories placed an
employee on loan to a non-profit organization for an extended period of approximately
12 years to perform community outreach activities. Sandia National Laboratories paid
the full cost of the employee's assignment, more than $1 million during that period. In
March 2005, after its nearly 12-year term, the Department became aware of this
assignment and initiated action to evaluate the assignment. It should be noted that the
costs discussed in the above examples, while incurred by the contractors, were fully
reimbursed by the Department.

We found that the Department had not established adequate policy regarding IPNCOS
assignments. Although the Department had issued guidance for IPA assignments, the
guidance was not specifically structured so as to be applicable to contractors on P N C O S
assignments with other Federal agencies and private organizations. Officials
acknowledged that the lack of Departmental guidance contributed to the ineffective
management of P N C O S assignments for contractor employees.

Additionally, with one exception, that being the Sandia Site Office, Department officials
had not monitored contractor use of P A or COS assignments. Specifically, site office
officials had not reviewed the relevancy, length, and funding arrangements for IPNCOS
assignments. To its credit, at Sandia, site officials began approving COS assignments in
Fiscal Year 2004.

The Department incurred about $1 1.3 million for the 3 1 IPNCOS assignments that are
discussed in this report. These assignnlents either exceeded the four-year maximum term
and/or had excessive relocation allowances. In addition, the costs of some of the
assignments were not properly allocated among participating entities. As of the date of
this report, the use of IPNCOS assignments continues. Unless clear and precise Federal
guidance is promulgated and more aggressive contract management emphasis is applied
to the IPAICOS program, additional questionable costs will be incurred.

We recognize that the IPAICOS concept may benefit the Department; however, it is
incumbent upon Departmental officials to ensure that the program is managed in the best
interests of the U.S. taxpayers. Accordingly, the report includes recommendations to
address the problems we found and to place the IPNCOS program on a sound footing
g;oinp forward.

In a previous Office of Lnspector General (OIG) report, Management of Facility
Contractors Assigned to the Washington, D. C. Area (DOEIIG-0710, November 2005),
involving other assignments of contractor employees, the OIG noted that the Department
needed guidelines for evaluating the reasonableness of cost, including parameters for
limiting or reducing the cost of contractor employees detailed to the Washington, D.C.,
area. A similx effart is a stzrting p i a t for addressing concerns regarding the IPHCOS
program.

MANAGEMENT REACTION

Management concurred with the finding and recommendations. Specifically, the
National Nuclear Security Administration (NNSA) agreed to take the lead in developing
guidance to correct problems discussed in our report. NNSA committed to present the
guidance to the Department's Under Secretaries and the Field Management Council for
u


standardization throughout the Department. Departmental procurement and human
capital management officials who have an acknowledged direct interest in this matter
concurred with this approach.


Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Under Secretary for Science
    Acting Administrator, National Nuclear Security Administration
    Chief of Staff
REPORT ON THE DEPARTMENT OF ENERGY'S MANAGEMENT
OF CONTRACTOR INTERGOVERNMENTAL PERSONNEL AND
CHANGE OF STATION ASSIGNMENTS


TABLE OF
CONTENTS


     Management of IPA/COS Assignments

     Details of Finding ..............................................................................................1

     Recommendations..............................................................................................7

     Comments ..........................................................................................................8


     Appendices

     1. Objective, Scope, and Methodology............................................................9

     2    Prior Audit Reports ....................................................................................11

     3. Summary of Estimated IPA/COS Assignment Costs ................................13
DEPARTMENT'S MANAGEMENT OF IPA/COS ASSIGNMENTS

Management of   The Department of Energy (Department) is not ensuring the cost
Assignments     effective use of contractor Intergovernmental Personnel Act
                (IPA) and Change of Station (COS) assignments. Specifically,
                among 31 of 77 IPA/COS assignments reviewed, we found that
                contractors in some cases:

                   •   Paid all the costs associated with the assignment even
                       though it appears that they should have shared the costs
                       with the participating entities benefiting from the
                       assignment;

                   •   Paid excessive allowances to assigned employees,
                       including the payment of both relocation and travel per
                       diem costs; and,

                   •   Assigned employees to other organizations for extended
                       periods of time, in one case about 15 years, without
                       ensuring their assignments were the most cost effective
                       approach to meeting mission needs.

                Additionally, the Los Alamos National Laboratory (Los Alamos)
                had not collected monies due to the Department under cost-share
                agreements for IPA assignments. As of September 27, 2006, we
                identified $891,000 that had not been collected.

                The costs incurred for and the duration of contractor IPA and
                COS assignments were not consistent with the guidance
                established by the Office of Personnel Management in IPA
                Mobility Program Provisions (IPA provisions) that summarize
                requirements for both federal and non-federal employees.
                Although these IPA provisions are not directly applicable to
                contractor COS assignments, we used them as a benchmark to
                evaluate the reasonableness of costs and assignment duration in
                the absence of more definitive criteria.

                                          Cost Sharing

                Sixteen assignments were not cost shared with the host
                organizations even though the assignments were intended to
                benefit both the laboratories and host organizations. IPA
                provisions state "Cost Sharing arrangements for mobility
                assignments should be based on the extent to which the
                participating organizations benefit from the assignment. The
                larger share of costs should be absorbed by the organization




Page 1                                                        Details of Finding
         which benefits most from the assignment." Further, assignments
         should not be arranged to meet personal interests of employees
         or for other personnel reasons.

         We found the following instances where assignments were not
         cost shared and in one case, appeared to facilitate a personnel
         decision.

            •   Lawrence Livermore National Laboratory (Livermore)
                agreed to pay 100 percent of the cost for four
                assignments with an approximate cost of $3.7 million as
                of August 2006. However, Livermore did not have
                documentation to support its funding decisions. In fact,
                one Livermore manager stated that he was not sure why
                an assignment costing Livermore about $723,000 was not
                cost shared. He stated that most funding decisions are
                verbally negotiated between Livermore's division
                directors and the host organizations. Furthermore,
                according to the Livermore manager, funding decisions
                are highly dependent on the availability of funds within
                site organizations, i.e., if a Livermore division has a
                surplus of funds, it may agree to pay 100 percent of the
                assignment costs even though the host entity benefits
                from the assignment.

            •   Sandia National Laboratories (Sandia) paid all of the
                expenses for two assignments at a cost to the Department
                of approximately $1.4 million as of August 2006. Sandia
                stated that the purpose of the assignments was to provide
                community service and authoritative advice to a host
                entity. Sandia did not maintain any documentation to
                support its decision to pay the entire cost of the
                assignments.

            •   Los Alamos agreed to pay 100 percent of the costs for
                10 assignments at a cost to the Department of
                approximately $3 million as of August 2006.
                Specifically, Los Alamos did not have documentation to
                justify why it agreed to pay all costs associated with these
                assignments even though they benefited the recipient
                organizations. For example, the University of California
                (UC) initiated an IPA assignment of a senior Los Alamos
                official to the Defense Threat Reduction Agency
                (DTRA). Los Alamos agreed to pay 100 percent of the
                costs of the IPA assignment even though it benefited




Page 2                                                  Details of Finding
                DTRA. The employee was tasked with developing and
                implementing a strategy for DTRA's science and
                technology program.

                We concluded that the IPA assignment was negotiated to
                facilitate a personnel decision to remove the senior
                official from Los Alamos, with the Department's
                knowledge. The IPA assignment allowed the individual:
                (1) to continue employment with Los Alamos/UC,
                although there were no plans for a return to the
                Laboratory; and, (2) to become eligible for retirement
                benefits. On June 1, 2006, during the course of our audit
                and subsequent to an internal audit report which
                questioned the allowability of the cost associated with the
                assignment, UC agreed to transfer the assignment and its
                cost from Los Alamos to UC. As of June 1, 2006, the
                cost to the Department associated with this assignment
                was about $289,000.

                              Excessive Allowances

         The laboratories paid excessive amounts for dislocation
         allowances, including relocation and temporary living expenses.
         According to the IPA provisions, an agency may reimburse a
         federal or non-federal employee for either limited relocation
         expenses, such as housing and furniture rental costs, or a per
         diem allowance for temporary living expenses in accordance
         with Federal Travel Regulations, but may not pay both. In
         addition, the IPA provisions state that a per diem allowance
         should not be paid for an assignment expected to last for more
         than one year or for an indefinite period. However, the
         laboratories exceeded reimbursement limitations noted in the
         provisions by paying 12 assignees for both relocation and per
         diem allowances. Specifically, we noted that:

            •   Sandia paid six assignees approximately $361,000 in
                dislocation allowances during Fiscal Years (FYs) 2004
                and 2005, which included reimbursement for both per
                diem and relocation. Furthermore, Sandia was the only
                contractor in our review that paid assignees an additional
                10 percent special salary increase (approximately
                $102,000 for these six assignees) for accepting the
                assignments.




Page 3                                                 Details of Finding
            •   Los Alamos reimbursed five assignees for both per diem
                and relocation expenses, totaling approximately $243,000
                during FYs 2004 and 2005. According to one IPA
                agreement, the host agency stated that the Los Alamos
                assignee had to choose between the reimbursement of per
                diem or relocation costs. However, Los Alamos agreed
                to reimburse all expenses in excess of the reimbursement
                limitations.

            •   At Livermore, an assignee on loan to a research facility
                in a foreign country was paid approximately $400,000 for
                dislocation allowances during FYs 2004 and 2005.
                Although the assignee has been on loan since June 1998,
                the site continued to pay for dislocation allowances
                including reimbursement for housing/cost of living
                adjustments, furniture rental, renter's insurance, car
                allowance, private school for a dependent, and foreign
                language lessons for a spouse. As of June 2006, total
                assignment costs were approximately $2.7 million.

                              Extended Assignments

         The laboratories assigned 10 employees to other organizations
         for extended periods of time without ensuring the assignments
         were the most cost-effective approach to meeting mission needs.
         In some cases, assignments were extended without formal
         agreements or transition plans for returning the employees to the
         laboratories. This practice was contrary to IPA regulations
         requiring that assignments be short term - limited to two years
         with a two-year extension, if justified. After the fourth
         continuous year, the employee must return to his/her originating
         duty station for at least 12 months if assigned to a different
         agency or at least 60 days if returning to the same agency before
         entering into a new IPA agreement. Although the IPA provisions
         do not apply to contractor COS assignments, they can be used as
         a benchmark for evaluating the reasonableness of these
         assignments, in the absence of more definitive criteria. For
         example, we noted that:

            •   Six employees at Livermore were on extended
                assignments for more than four years. None of the
                assignments had transition plans for the assignees to
                return to Livermore. In fact, several Livermore
                department managers stated that transitioning assignees
                back to the site was typically a difficult process.
                Additionally, Livermore had not performed any analyses


Page 4                                                Details of Finding
                to ensure that these extended assignments were cost
                effective to Livermore or the Department. One
                assignment is currently in its 15th year, but was originally
                designated for six months and was extended with an
                "open" end date. The assignment has cost the
                Department approximately $1.2 million as of August
                2006.

            •   A Sandia employee was on a COS assignment for
                approximately 12 years without the execution of a written
                agreement. During the 12 years, the employee never
                physically worked at Sandia, and instead served as
                executive officer of a non-profit organization. Sandia had
                no analyses to demonstrate that this extended assignment
                was a cost effective approach for the site to meet a
                mission requirement. The assignment has cost the
                Department over $1 million. In March 2005, the
                Department became aware of the assignment and is
                currently reviewing it for cost allowablility.

            •   Los Alamos had three assignments that had been
                extended beyond four years. One IPA assignment had
                been in effect for six years and at the time of our review,
                Los Alamos was in the process of extending the
                assignment. Additionally, a COS assignment to another
                Department contractor was in effect for nine years, and
                there was no formalized transition plan for the employee
                to return to Los Alamos. The third IPA assignment has
                been in effect for approximately 5 1/2 years.

                In each of the above cases, the concerned laboratories had
                not identified or determined the cost benefit of
                alternatives available to meeting the objectives of the
                IPA/COS assignments.

                               Outstanding Balances

         Our analysis of IPA/COS assignment accounts receivable
         balances at Los Alamos confirmed a recent Los Alamos internal
         audit finding that Los Alamos had failed to collect monies owed
         to Los Alamos from IPA/COS assignments. Specifically, the
         internal audit group identified approximately $1 million due to
         Los Alamos from host entities as of June 30, 2005. As of
         September 27, 2006, we identified $891,000 that had not been
         collected. During the course of our audit, Los Alamos




Page 5                                                  Details of Finding
               acknowledged the need to improve its collection of IPA/COS
               receivables and implemented corrective actions to address the
               collection problems.

Guidance and   The Department has not developed the policy and guidance or
Oversight      provided the oversight necessary to effectively manage
               contractors' use of IPA and COS assignments.

                                    Departmental Guidance

               The Department has not provided guidance to its contractors
               regarding the duration of assignments or the reimbursement of
               allowances (relocation and per diem costs) to assignees working
               at other agencies. Additionally, it has not required contractors to
               identify and determine the cost benefit of alternative approaches
               to achieving the mission objectives of IPA/COS assignments that
               involve extended duration and/or extensive relocation costs.

               Although the Department has established guidance (DOE M
               321.1-1, Intergovernmental Personnel Act Assignments) for
               federal and non-federal employees on IPA assignments who are
               assigned to the Department, the guidance does not provide
               specific coverage for contractor employees who go to other
               federal agencies and organizations on IPA/COS assignments.
               Department officials confirmed the current IPA assignment
               policy would not apply to such assignments and stated that the
               lack of clear guidance has contributed to the ineffective
               management of IPA/COS assignments for contractor employees.

               Officials at the laboratories stated that the language in the
               Intergovernmental Personnel Act of 1970 (IPA Act) and the IPA
               Mobility Program Provisions was vague and, therefore, was not
               uniformly implemented. In addition, the laboratories had
               internal policies and guidance that were not consistent with the
               IPA Act, federal regulations, or Mobility Program Provisions.
               For example, the laboratories relied on internal policies and
               guidance to extend IPA assignments beyond four years and to
               reimburse temporary living allowances beyond one year. In
               some cases, laboratory officials told us that the extended
               assignments and relocation expenses were justified by the
               mission benefits provided by the IPA/COS assignments.
               However, as discussed above, the laboratories had not identified
               and determined the cost benefit of alternatives to achieve the
               same mission benefits at reduced costs.




Page 6                                                        Details of Finding
                                          Departmental Oversight

                      Department officials did not review contractors' use of IPA/COS
                      assignments. For example, Department site offices were
                      generally unaware of the duration and cost of such assignments.
                      However, the Sandia Site Office approved COS assignments per
                      the Sandia contract. To its credit, Sandia recently implemented a
                      centralized process for facilitating the management of
                      assignments for loaned personnel. Specifically, Sandia
                      developed an internal organization responsible for reviewing and
                      approving all personnel loan assignments.

Operational Impacts   The Department incurred about $11.3 million for assignments
                      included in our review that were either too long, resulted in
                      excessive costs, or were not appropriately cost shared with host
                      entities (See Appendix 3 for a summary of total estimated
                      IPA/COS assignment costs). Additionally, Los Alamos did not
                      collect about $891,000 in IPA/COS accounts receivable
                      balances; these monies could have been applied to other mission
                      needs. Further, we question about $289,000 associated with the
                      IPA between UC and DTRA regarding the assignment of a
                      former senior Los Alamos official. Until the Department
                      provides additional guidance and effective oversight of
                      contractors' use of IPA/COS assignments, it is likely to incur
                      additional unnecessary costs.


RECOMMENDATIONS       To further strengthen controls over IPA/COS assignments with
                      both federal and non-federal entities, we recommend that the
                      Associate Administrator for Management and Administration,
                      National Nuclear Security Administration (NNSA), develop
                      guidance for contractor use of IPA/COS assignments to be
                      presented to the Field Managers Council for adoption throughout
                      the Department.

                      As part of the Department-wide guidance, we recommend the
                      Chairman, Field Managers Council:

                         1. Require a determination of the cost benefit of alternatives
                            to meeting the mission objectives of IPA/COS
                            assignments; and,

                         2. Establish parameters and/or requirements for:

                                 •   Length of assignment;




Page 7                                                            Recommendations
                       •   Reimbursement of dislocation allowances; and,

                       •   Cost sharing.

             We recommend that the Managers, Los Alamos, Sandia, and
             Livermore Site Offices:

                1. Develop and implement processes to ensure that the
                   requirements of the established guidance are followed;
                   and,

                2. Make cost allowability determinations on amounts paid
                   for assignees discussed in this report under IPA
                   agreements/COS assignments and collect any
                   unallowable amounts.

             We also recommend that the Manager, Los Alamos Site Office,
             ensure that Los Alamos strengthens internal controls for
             collecting amounts owed to the Department for reimbursable
             assignments and collects outstanding balances.


MANAGEMENT   Management concurred with the finding and recommendations.
REACTION     Specifically, NNSA management agreed to take the lead for the
             the Department in developing guidance to correct problems
             discussed in our report. NNSA committed to present the
             guidance to the Department's Under Secretaries and the Field
             Management Council for standardization throughout the
             Department. Departmental procurement and human capital
             management concurred with this approach to addressing our
             recommendations.


AUDITOR      Management's comments are responsive to our
COMMENTS     recommendations.




Page 8                                                         Comments
Appendix 1

OBJECTIVE     The audit objective was to determine whether the Department
              of Energy (Department) is effectively managing the use of
              contractor Intergovernmental Personnel Act (IPA) and Change-
              of-Station (COS) assignments to other federal agencies and
              qualified organizations.


SCOPE         The audit fieldwork was performed between December 2005
              and November 2006, and included a sample of active
              assignments during Fiscal Year (FYs) 2004 and 2005, at the
              Argonne National Laboratory; Lawrence Berkeley National
              Laboratory; Lawrence Livermore National Laboratory; Los
              Alamos National Laboratory; Sandia National Laboratories; and,
              Pacific Northwest National Laboratory.


METHODOLOGY   To accomplish the audit objective, we:


                 •   Reviewed applicable laws and internal/external policies
                     and procedures;

                 •   Reviewed prior audits;

                 •   Obtained listings of assignments that were initiated,
                     active, or terminated during FYs 2004 and 2005;

                 •   Judgmentally selected a sample of active IPA and COS
                     agreements during FYs 2004 and 2005;

                 •   Obtained and reviewed assignment agreements and
                     correspondence files; and,

                 •   Discussed processes for the implementation,
                     management, review and approval of assignments with
                     both laboratory and Department officials.

              The audit was conducted in accordance with generally accepted
              government auditing standards for performance audits and
              included tests of internal controls and compliance with laws and
              regulations to the extent necessary to satisfy the objective of the
              audit. Accordingly, we assessed the significant internal controls
              and performance measures established under the Government
              Performance and Results Act of 1993 and found that measures
              had not been established for contractor IPA and COS



Page 9                                  Objective, Scope, and Methodology
Appendix 1 (continued)

                    assignments. Because our review was limited, it would not
                    necessarily have disclosed all internal control deficiencies that
                    may have existed at the time of our audit. We determined that
                    controls over computer-processed data were not integral to
                    meeting the objectives of our audit. Management waived the exit
                    conference.




Page 10                                      Objective, Scope, and Methodology
Appendix 2


                                 PRIOR AUDIT REPORTS


The Office of Inspector General (OIG) and other audit organizations have previously reported
on the implementation and management of contractors on loan to the Department of Energy
(Department) and other organizations.

OFFICE OF INSPECTOR GENERAL REPORTS

   •   Management of Facility Contractors Assigned to the Washington, D.C. Area (DOE/IG-
       0710, November 2005). The Department requires D.C. area assignments to be limited
       to one year in duration unless considered critical. However, the audit found that 36 of
       the 189 employees reviewed had been in the Washington area for 10 or more
       years. The assignment justifications were found to be inadequate or not prepared for
       the 30 people in the sample. It was also found that living expense reimbursements
       varied by laboratory, including one laboratory that paid an employee about twice the
       per diem rate for a year ($140,000 versus $70,000). The average annual employee
       assignment cost was $247,000, with as much as $576,000 per year for one person. As a
       result, the OIG recommended the establishment of guidelines for evaluating the
       reasonableness of cost, including parameters for limiting or reducing the cost of
       assignments.

   •   Summary Audit Report on Contractor Employee Relocation and Temporary Living
       Costs (DOE/IG-0400, January 1997). The audit disclosed systemic problems of
       contractors charging the Department for unreasonable and unallowable employee
       relocation and temporary living and associated travel costs. These unreasonable and
       unallowable costs were charged because the Department did not use clearly defined
       contractual provisions that were consistent with the Federal Acquisition Regulations
       and Department of Energy Acquisition Regulations, as applicable, to establish
       reasonable and allowable charges for contractors. As a result, contractors claimed and
       were reimbursed about $13.6 million for costs to which they were not entitled.
       Since 1992, the OIG has issued nine audit reports that identified unreasonable and
       unallowable charges for employee relocation and temporary living costs by contractors
       and their subcontractors. The audits cited instances of salary allowances, relocation
       costs and temporary living allowances that appeared to be excessive.

GOVERNMENT ACCOUNTABILITY OFFICE REPORTS

   •   Homeland Security (DHS) Needs to Improve Ethics-Related Management Controls for
       the Science and Technology Directorate (GAO-06-206, December 2005). This audit
       focused on conflicts of interest created by IPAs at the Department of Homeland
       Security's Science and Technology Directorate. The purpose of the Directorate is to
       identify and develop countermeasures to chemical, biological, radiological, nuclear, and
       other emerging terrorist threats on the United States. The Directorate had 16 portfolio
       managers, of which 5 came from Department of Energy's (DOE) laboratories.



Page 11                                                                   Prior Audit Reports
Appendix 2 (continued)

      In Fiscal Year (FY) 2004, 23 percent of the Directorate's $761 million in funding went
      to DOE laboratories. The report stated that the role of the five managers, in
      determining where research and development projects and associated funds were
      directed, was unclear. This was attributed to there being no documentation of the
      decision-making process and the inability to determine the extent that IPA involvement
      affected funding decisions of their home laboratories. The report recommended that the
      Directorate take several steps designed to alleviate conflicts of interest and better define
      the role of IPAs in the organization.

CONTRACTOR INTERNAL AUDIT REPORTS

  •   Audit of Intergovernmental Personnel Act and Change of Station Assignments (Los
      Alamos National Laboratory Audits and Assessments Division, January 27, 2006). The
      audit report disclosed that IPA and COS assignments were generally consistent with
      DOE requirements and Los Alamos policies and procedures. However three issues
      were identified: outstanding balances from partners; potential conflicts of interest; and,
      lack of documentation for funding decisions.

      Specifically, the audit found that 24 of the 55 agreements reviewed had reimbursement
      terms. Of the 24, 22 had outstanding balances totaling more than $1 million as of
      June 30, 2005. About $962,000 of that amount was at least 60 days past due, including
      about $275,000 originally invoiced in FY 2003 and about $442,000 originally invoiced
      in FY 2004. The audit team identified a weakness in internal controls over the
      collection of reimbursable agreements. The problem was due to a sub-ledger system of
      work-for-others not working properly. There was no effort made to correct the system.
      As a result, several organizations with large balances had not been billed for over a year
      for their cumulative amounts due. In addition, seven potential conflicts of interest were
      identified. The conflicts of interest were identified as resembling lobbying
      activity. Lastly, the report expressed concern about inadequate justifications for
      funding decisions made, particularly those where Los Alamos was paying 100 percent
      of the costs. It noted that it was sometimes unclear why the other organizations were
      not contributing to the cost when they were receiving a benefit from the assignments.




Page 12                                                                    Prior Audit Reports
Appendix 3


       SUMMARY OF TOTAL ESTIMATED IPA/COS ASSIGNMENT COSTS



          Department's       Total          Excessive      Extended          Total
           National       Assignment       Allowances     Assignments         (1)
          Laboratories     Costs Not       (FYs 2004-
                          Shared with         2005)
                          Host Entities

          Los Alamos       $2,991,615          $242,575
          Livermore        $3,730,823         $407,528     $1,220,183
          Sandia           $1,368,424         $361,272     $1,056,218
          Total            $8,090,862        $1,011,375    $2,276,401     $11,378,638


(1) Approximately $113, 407 of this amount represents costs for assignments that had
duplicative issues (i.e. cost sharing and excessive allowance issues).




Page 13                              Summary of Estimated IPA/COS Assignment Costs
                                                                    IG Report No. DOE/IG-0761


                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name ____________________________ Date __________________________

Telephone ________________________ Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                       http://www.ig.energy.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
